                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A12120086                                                                         Page 1 of 1



                                                        Closeout

                  OIG received allegations that NSF-funded 1 publications2 contained self-plagiarism, indicating
         possible duplication, as well as falsification both of demographics for samples and of labels for
         examples given within the publications. The allegation also pointed out the order of publication for
         two of the articles as evidence of possible falsification.
                  Our office determined that the overarching topics stemmed from related ideas and data
         collection methods, though the main idea of each paper, the data used for results, and each paper's
         conclusions were not duplicative. In addition, because the articles identified the dates of submission,
         we found no evidence of misrepresentation related to which study preceded another,
                  Based on NSF's regulation, an author re-using text in multiple publications is not generally
         considered research misconduct. However, we wrote to the Subjects3 about the apparent
         falsifications. Based on the evidence and the Subjects' responses to our letter, we determined thatthe
         apparent falsification for the samples was in fact a misreporting based on a mixture of an incomplete
         understanding of how to report attributes, in addition to error. The Subject also admitted to
         erroneously labeling two examples in two of the publications. We determined that the mislabeled
         figures did not rise to the level of research misconduct.
                  We sent the Subject who took responsibility for the errors4 a Questionable Research Practice
         letter, reminding him of the importance of avoiding research practices that may lead to the
         impression of research misconduct. We also recommended that he submit errata to the journals in
         which the articles were published.

                   This case is closed and no further action will be taken.




NSF OIG Form 2 (11/02)
